U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



      Food and Nutrition Service
 Child and Adult Care Food Program
       Wildwood, Inc., Phase II
          Littleton, Colorado




                Report No.
                27010-6-KC
                November 2001
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                             Audit
                                      Great Plains Region
                                   5799 Broadmoor, Suite 600
                                    Mission, Kansas 66202




DATE:        November 21, 2001

REPLY TO
ATTN OF:     27010-6-KC

SUBJECT:     Child and Adult Care Food Program, Wildwood, Inc., Phase II


TO:          William E. Ludwig
             Regional Administrator
             Food and Nutrition Service
             1244 Speer Boulevard, Suite 903
             Denver, CO 80204


This report presents the results of the subject audit. The written response, dated
November 6, 2001, to the draft report has been incorporated into the Findings and
Recommendations section of the report where appropriate. The response is attached in its
entirety as exhibit D. Excerpts from the response and our comments are presented in the
Findings and Recommendations section of the report and explain those actions necessary
for us to consider management decisions on Recommendations Nos. 1, 2, 3, and 4. We
will need to be advised of the specific actions completed and satisfactory beginning and
ending dates for proposed actions along with evidence of billings for the unallowable costs.

Your response raised three issues where you requested additional information or
clarification. We have made editorial changes to our report to reflect your comments.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final
action for those recommendations where management decision has not been reached.
Please note that the regulation requires management decisions to be reached on all
findings and recommendations within 6 months from the date of report issuance.

We appreciate the assistance you and your staff provided to us during our review.

/s/

DENNIS J. GANNON
Regional Inspector General
 for Audit
                                    EXECUTIVE SUMMARY
                                 FOOD AND NUTRITION SERVICE
                           CHILD AND ADULT CARE FOOD PROGRAM
                                 WILDWOOD, INC. – PHASE II
                                  LITTLETON, COLORADO

                                         REPORT NO. 27010-6-KC


                                             Wildwood, one of the nation’s largest sponsors
            RESULTS IN BRIEF                 of the Child and Adult Care Food Program
                                             (CACFP), continues to operate the program
                                             without demonstrating that it maintains
               effective control over and accountability for Federal grant funds. We
               initiated this audit as a followup to our previous audit of Wildwood as a
               result of the control weaknesses and the number and seriousness of
               conditions noted during that review. The prior audit1 identified problems
               concerning a lack of controls necessary to safeguard CACFP funds from
               fraud or unauthorized use, financial systems inadequate to account for
               CACFP funds, an insecure computer system used for the financial
               accounting system, and commingling of CACFP funds.                   Serious
               weaknesses identified in the prior report are repeated in this report to
               illustrate the systemic weakness in Wildwood’s computerized accounting
               systems and ineffective or missing controls over program funds. Our
               primary objective for this followup audit was to reconcile the receipt of
               Federal funds from Food and Nutrition Service (FNS), through the State
               Agency (SA), through Wildwood, and to the providers and centers. As
               shown below, we were unable to fully accomplish our objective because of
               the lack of controls and the numerous errors and inconsistencies in
               Wildwood’s records.

                   We were able to reconcile the deposit of Federal funds into Wildwood’s
                   accounts, however, we could not rely on Wildwood’s accounting system
                   and controls to provide assurance that the funds were properly disbursed
                   to eligible providers and centers. We determined there were numerous
                   and extensive problems associated with Wildwood’s preparation of bank
                   reconciliations. Wildwood’s records showed that almost $160,000 of
                   checks to providers remained outstanding for extensive periods, although


  1
      Audit Report No. 27010-3-KC, Child and Adult Care Food Program, Wildwood, Inc., dated March 22, 2000.



USDA/OIG-A/27010-6-KC                                                                                         Page i
                    checks not cashed by the intended providers were subject to refund to
                    FNS.

                    Regulations require that a SA terminate agreements with any institution,
                    which it determines to be seriously deficient.2 Serious deficiencies may
                    include a failure to maintain adequate records or a history of financial
                    mismanagement. During the audit, the SA performed a review of
                    Wildwood that was independent from our audits and which focused on
                    other aspects of Wildwood’s responsibilities. (The SA’s review did not
                    specifically cover accountability of Federal funds.) The SA concluded that
                    Wildwood was seriously deficient in a number of identified areas and, after
                    a period for corrective action, the SA initiated action to terminate
                    Wildwood as a sponsor. As allowed by the regulations, Wildwood
                    appealed the SA’s determination and as of August 2001 was still
                    participating in the program pursuant to a Federal court order. The SA’s
                    proposed termination action was also the subject of Federal court
                    proceedings. During March 2001, a settlement agreement to resolve the
                    court proceeding was reached. Under the terms of this settlement, the SA
                    agreed to utilize an independent team to conduct a review of identified
                    areas of the current operations of Wildwood to determine if the causes of
                    the SA’s initial determination of serious deficiency had been corrected.
                    Based on the findings of the independent review, the SA concluded
                    Wildwood had not corrected the serious deficiencies in the identified
                    areas. As a result, the court proceedings on the SA’s termination action
                    remain ongoing.

                    In our opinion, the absence of an adequate and accountable financial
                    management system at Wildwood poses an unacceptable risk to the
                    CACFP and Federal funds. FNS must take prompt action to ensure that
                    the approximately $1 million of funds provided to Wildwood monthly are
                    used in accordance with program requirements and that funds are
                    properly disbursed to eligible providers. The SA must determine whether
                    Wildwood can demonstrate that it can correct its serious deficiencies and
                    whether it can continue to participate in the CACFP.

                                      We recommend that FNS coordinate with the
     KEY RECOMMENDATIONS              SA to take administrative action utilizing the
                                      necessary regulatory actions to ensure the
                                      conditions we noted are corrected in a timely
           manner or the sponsor be terminated from the program. Because of the
           serious weaknesses exhibited by Wildwood’s accounting system and lack
           of controls, the SA and/or FNS should provide advice, assistance, and

 2
     7 Code of Federal Regulations (CFR) 226.6 (c), dated January 2000.



USDA/OIG-A/27010-6-KC                                                                   Page ii
           alternative methods to ensure Wildwood uses Federal funds only for
           authorized purposes, and any funds which cannot be proven to have been
           used properly should be recovered (see exhibit A). This should include
           monitoring and review to ensure Federal funds were used only for
           authorized purposes during the appeal period and until Wildwood
           demonstrates effective corrective actions have been taken and controls
           are in place and functioning.

           FNS should coordinate with the SA so that Wildwood develops an
           environment and strengthens controls to ensure financial reports are
           accurate. These actions include requiring Wildwood to improve computer
           security, maintain integrity of program funds, and reconcile each provider’s
           earnings, payments, and cleared checks. Wildwood should be required to
           account for all checks listed as outstanding and return funds where
           appropriate. Further, Wildwood should be required to strengthen check
           accountability, improve bank reconciliation procedures and other cash
           controls, and establish a financial management system that accounts for
           its operations according to Federal financial management standards.

                                    FNS Regional Office officials provided written
     AGENCY RESPONSE                comments, dated November 6, 2001, to the
                                    draft report expressing general concurrence
                                    with the recommendations (see exhibit D for
        the complete response). FNS officials advised that they will coordinate
        with the SA to ensure that Wildwood develops an environment and
        strengthens controls to ensure financial reports are accurate.

           The response showed FNS will coordinate with the SA to ensure
           Wildwood is notified that it must correct the serious deficiencies in its
           operations, show that it can maintain adequate records that provide a
           complete, accurate, and current disclosure of the financial results of the
           CACFP and establish effective control over and accountability for all
           Federal funding. FNS plans to direct the SA to offer Wildwood technical
           assistance in establishing a financial management system that meets
           requirements. It is anticipated that a consultant would be used to assist
           Wildwood in establishing the financial management system. It is also
           anticipated that Wildwood would be subjected to an agreed upon
           procedures review to allow Wildwood to demonstrate that it has fully and
           completely corrected the serious deficiencies.

                                       While the FNS response is positive, we are
         OIG POSITION                  concerned whether the proposed actions will
                                       be sufficient to ensure Federal funds for past
                                       periods were properly expended. We will


USDA/OIG-A/27010-6-KC                                                          Page iii
          need detailed documentation of actions taken by the agency to determine
          whether or not to allow Wildwood’s claims for reimbursement.

          In order to consider the management decisions, we will need to be
          advised of the specific actions taken or planned and be provided with
          detailed timeframes for initiating and completing proposed corrective
          actions. In addition, we need specific determinations and billings evidence
          as appropriate for the questioned costs in exhibit A.




USDA/OIG-A/27010-6-KC                                                        Page iv
                                             TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................i

   RESULTS IN BRIEF....................................................................................................i

   KEY RECOMMENDATIONS ......................................................................................ii

   AGENCY RESPONSE ..............................................................................................iii

   OIG POSITION..........................................................................................................iii

   TABLE OF CONTENTS ............................................................................................ v
INTRODUCTION............................................................................................................1

   BACKGROUND .........................................................................................................1

   OBJECTIVES .............................................................................................................2

   SCOPE .......................................................................................................................2

   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................4

   CHAPTER 1 ...............................................................................................................4

   THE SPONSOR MAINTAINED INADEQUATE FINANCIAL CONTROLS ................4

   FINDING NO. 1 ..........................................................................................................5

   RECOMMENDATION NO. 1 ......................................................................................8

   RECOMMENDATION NO. 2 ......................................................................................8

   FINDING NO. 2 ..........................................................................................................9

   FINDING NO. 3 ........................................................................................................11

   FINDING NO. 4 ........................................................................................................16

   RECOMMENDATION NO. 3 ....................................................................................17

USDA/OIG-A/27010-6-KC                                                                                                   Page v
   FINDING NO. 5 ........................................................................................................18

   RECOMMENDATION NO. 4 ....................................................................................21
GENERAL COMMENTS..............................................................................................22

   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................23

   EXHIBIT B – SITES VISITED...................................................................................24

   EXHIBIT C – CHECKS THAT NEVER CLEARED PER RECONCILIATIONS ........25

   EXHIBIT D – FNS RESPONSE TO THE DRAFT REPORT .....................................26
ABBREVIATIONS........................................................................................................30




USDA/OIG-A/27010-6-KC                                                                                            Page vi
                            INTRODUCTION

                                       Wildwood, Inc. (Wildwood), located in Littleton,
        BACKGROUND                     Colorado, sponsored day care facilities that
                                       provided meals to children enrolled in the U.S.
                                       Department of Agriculture’s Child and Adult
         Care Food Program (CACFP). The CACFP was established in 1975 by
         Public Law 94-105 and is intended to ensure that children who attend day
         care facilities receive nutritious meals by reimbursing participating
         nonresidential care facilities, including day care homes (homes) and day
         care centers (centers), for meals served to children in their care. The
         CACFP requires that meals claimed for reimbursement meet certain
         nutritional standards.

          The CACFP is administered at the Federal level by the Food and Nutrition
          Service (FNS) and in most States by a State agency (SA). In Colorado, the
          SA is the Colorado Department of Public Health and Environment (CDPHE).
           SAs administer the program through sponsoring organizations (sponsors),
          like Wildwood. A sponsor acts as a liaison between the SA and day care
          providers (providers) and is ultimately responsible for program operations in
          those facilities. Sponsors are required to review and monitor the food service
          operations of providers they sponsor. Monitors must assess compliance with
          CACFP meal patterns, recordkeeping, and other requirements at least three
          times per year.

          Sponsors also train providers and monitor operations in their homes to
          ensure compliance with program requirements.         Providers can only
          participate in the program through a sponsor.          Sponsors receive
          reimbursement for costs of administering the program on a per-home basis.
          The more homes a sponsor administers, the greater the reimbursement for
          administrative costs.

          In Colorado, sponsors normally submit consolidated monthly claims to the
          SA by the 17th of the month following the claim month. They usually receive
          payments by electronic funds transfer from the SA by the first working day of
          the next month. At that time, the sponsor then disburses the payments to
          providers. Regulations require sponsors to disburse food service payments
          within 5 working days of receipt. Sponsors receiving $300,000 per year or
          more are required to have an annual audit performed in accordance with the
          Office of Management and Budget’s Circular No. A-133.


USDA/OIG-A/27010-6-KC                                                           Page 1
                    For the fiscal years (FY)                       reviewed, Wildwood received program
                    reimbursements as follows.

                    Year ended          Homes                   Centers                 Administrative   Total
                    September 30
                    1997                $11,088,992              $ 880,678              $1,654,221       $13,623,891
                    1998                $ 9,301,631              $ 927,726              $1,633,663       $11,863,020
                    1999                $ 8,914,230              $ 975,753*             $1,518,717       $11,408,700
                    Total               $29,304,853              $1,808,404             $4,806,601       $36,895,611
                              * Wildwood ceased sponsoring centers at the end of FY 1999.


                    For FY 1999, Wildwood received approximately 49 percent of the SA’s
                    total CACFP funds for food and administrative costs.

                                                The audit was performed to follow up on internal
                  OBJECTIVES                    control weaknesses and noncompliance
                                                identified during the previous audit of
                                                Wildwood.1 The audit objectives of this audit
                   were to reconcile Federal funding provided by FNS, through the SA, through
                   Wildwood, and to verify receipt by eligible providers and centers.

                                                  We traced the flow of disbursements from the
                       SCOPE                      FNS Mountain Plains Regional Office (FNSRO)
                                                  to the SA for FYs 1997, 1998, and 1999.
                                                  However, transactions in other periods were
                    reviewed as deemed necessary to achieve our objectives. We tested the
                    SA’s payments of the Federal funds to all sponsors in Colorado for a
                    judgmentally selected 6-month period. We then traced all payments from the
                    SA to Wildwood for FYs 1997, 1998, and 1999. At Wildwood, we obtained
                    information in an automated format regarding claims covering FYs 1997
                    through 1999, and we obtained records that were in an automated format
                    directly from the bank for the period July 1998 through February 2000.

                    We reviewed FNS, SA, and Wildwood records at their respective locations in
                    the Denver, Colorado, area. (See exhibit B for a list of sites visited). We
                    conducted the review during the period February through December 2000.

                    Our prior audit noted serious deficiencies in Wildwood’s computer security
                    and concluded Wildwood’s methods of handling money rendered its
                    accounting system inadequate to account for its administrative and provider
                    funds. As noted in this report, we were unable to rely on Wildwood’s
                    financial and computer systems to assure that the Federal funds provided to
1
    Audit Report No. 27010-3-KC issued in March 2000

USDA/OIG-A/27010-6-KC                                                                                            Page 2
          Wildwood were properly received by homes and centers. Therefore, FNS
          should not consider our review as offering any assurance the funds
          provided to Wildwood were used only for authorized purposes.

          We conducted this audit in accordance with Government Auditing
          Standards.

                                      We interviewed FNS, SA, and Wildwood
        METHODOLOGY                   officials to obtain background information,
                                      policies, procedures, and internal controls over
                                      food and administrative claims and related
          documentation.

          At the FNSRO, we obtained documentation of available data detailing
          payments under the CACFP to the Colorado SA.            This included
          information showing SA claims on the Special Nutrition Programs
          Integrated Information System (SNIPIIS) maintained by FNS’ National
          Office. At the SA, we reconciled the SA claims to the FNSRO payment
          records. We also obtained information from the SA accounting system as
          to dates and amounts of payments to Wildwood.

          At Wildwood, we utilized the summary claims information maintained on
          the Colorado Financial Reporting System (COFRS) to compare claims
          made by Wildwood to monies paid to Wildwood and traced funding per the
          SA records to deposits in Wildwood’s accounts.              We utilized the
          automated banking and claims information obtained from Wildwood and
          the independent bank to perform additional analyses for reasonableness
          of the claims. When available, we considered information presented in
          Wildwood’s audit reports obtained to meet OMB Circular A-133
          requirements. We reviewed bank reconciliations and, for selected periods,
          we identified checks listed on the reconciliations that had never cleared the
          bank.

          Where pertinent, the findings and recommendations from our prior report
          were incorporated into this report to fully illustrate the weaknesses in
          accountability and lack of controls at Wildwood.




USDA/OIG-A/27010-6-KC                                                          Page 3
                    FINDINGS AND RECOMMENDATIONS

                              THE SPONSOR MAINTAINED INADEQUATE
 CHAPTER 1
                              FINANCIAL CONTROLS

                     We were unable to rely on Wildwood’s accounting system to provide
                     assurance that the funds were properly disbursed to eligible providers
                     and centers in accordance with regulatory requirements and timeframes.
                     In our prior audit and again in this audit, we determined that there were
                     serious internal control weaknesses and numerous deficiencies in
                     Wildwood’s financial records and computer systems which were used to
                     provide accountability for $36,895,611 of Federal funds received for the 3
                     FYs ending September 30, 1999. We questioned the integrity of the
                     accounting system including erroneous financial statements, a lack of
                     security over the computer system, lack of accountability for outstanding
                     checks disbursing Federal funds, and ineffective controls over cash
                     including inaccurate bank reconciliations. We concluded Wildwood’s
                     accounting system and controls could not provide adequate assurance
                     that the entire amount of Federal funding received by Wildwood for the
                     audit period was properly expended for eligible purposes. This includes
                     $159,753 where Wildwood’s records indicated that outstanding checks to
                     providers had not been cashed (see exhibit A).

                     By regulation, serious deficiencies in a sponsor’s operation include, but are
                     not limited to, submission of false information to the SA, failure to maintain
                     adequate records, claiming of program payments for meals not served to
                     participants, failure of a sponsoring organization to disburse payments to
                     its facilities in accordance with its management plan, and a history of
                     administrative or financial mismanagement in any Federal child nutrition
                     program. SAs are required to terminate agreements with sponsors
                     determined to be seriously deficient. However, SAs generally must first
                     afford sponsors the opportunity to correct the deficiencies.2

                     In our opinion, FNS and the SA cannot allow Wildwood to continue to
                     participate in CACFP without accountability over program funds. FNS
                     must ensure that funds are used in accordance with program
                     requirements and that funds are properly disbursed to eligible providers.
                     The SA must determine whether Wildwood can demonstrate that it can

 2
     7 Code of Federal Regulations (CFR) 226.6 (c), dated January 2000.


USDA/OIG-A/27010-6-KC                                                                      Page 4
              correct the serious deficiencies in its administration of the program and
              whether Wildwood can continue to participate in the CACFP.

                                       Wildwood’s financial records had unexplained
        FINDING NO. 1                  entries   and     unsupported        transactions.
                                       Wildwood attributed its financial statement
   ACCOUNTING SYSTEM WAS               problems to the software designed by the SA.
        UNRELIABLE                     However, we noted other errors and control
                                       weaknesses that were not related to the
                                       software. In effect, the financial statements are
          misstated and cannot be relied upon.

            Our prior audit reported that the accounting records were in disarray. We
            noted entries in the FY 1997 accounting ledger that were FY 1998
            transactions. There were inappropriate transfers between funds, overdrafts,
            and account deficits. In addition, due to the turnover of controllers and the
            limited access auditors had to them, explanations of unclear or erroneous
            entries were not forthcoming.

            In response to our prior audit report, Wildwood submitted a June 9, 2000,
            letter that attributed many of the conditions noted to poorly designed
            Management Information System (MIS) software provided by the SA.
            Wildwood’s letter included the following comments about the shortcomings of
            the software system:

                     Wildwood has documented many of the administrative problems
                     that the MIS has caused, but it is impossible to document all.
                     Some problems include double–posting of claims and double-
                     issue of checks, re-entering information that was lost in the
                     system or unable to be retrieved, losing provider information,
                     submission of claims late to the SA, unreliable numbers of claims
                     received/posted. The MIS often totally shut down, making it
                     impossible to meet deadlines.

                     During FY 1999 problems continued to surface, specifically the
                     MIS did not calculate the proper amount when preparing
                     reimbursement checks for providers, checks paid to providers did
                     not always equal the amounts claimed, when the MIS printed a
                     check register for checks paid in a given month the amounts on
                     the register did not always equal the amount printed on the check,
                     the MIS sometimes deleted checks that were paid so there was
                     no record of the payment in the system, claims were sometimes
                     double-posted and checks were sometimes double issued, and
                     the MIS lost provider information, indicated unreliable numbers of


USDA/OIG-A/27010-6-KC                                                            Page 5
                  claims received\posted, and was often unable to recognize prior
                  year information at year end.

          We found a large number of errors that were similar to the errors
          described in Wildwood’s memo; however, our review was not designed to
          determine if the problems occurred because of the software or because of
          user error. We did note that similar problems with financial reports were
          also occurring before the new MIS was implemented in July 1997.
          According to the SA, other sponsors using this system did not experience
          the problems experienced by Wildwood. The result was that our review of
          Wildwood’s accounting records disclosed so many inconsistencies; we
          could not rely on the information.

          Wildwood had significant turnover of personnel during the audit period,
          particularly the controllers who were responsible for the accounting records.
          This meant that there was no institutional memory of the history and
          operation of the accounting system by the controller. Also, delays were
          caused while each newly hired controller learned the accounting system or
          attempted to institute a new system. Even though Wildwood contended the
          State-provided system was inadequate, it was incumbent upon Wildwood
          to ensure the reliability of its own financial management system.

          For example, we noted instances where Wildwood’s financial records had
          out of balance conditions without explanation. The March and April 1998
          balance sheets for centers were out of balance by $29,401 and $36,981,
          respectively. The related records showed that the total debits did not
          equal total credits for the above. From October 1997 through August
          1998, the balance sheet showed liabilities for the advance from the SA of
          $265,000 and a liability for “Year End Accruals” of $696,912. Wildwood’s
          financial records showed that these balances remained constant, although
          the liability to the SA actually changed each month and the yearend
          accruals should normally have been reversed at the start of the new FY.
          SA records showed the advance was actually $135,000 as of the end of
          October 1997, and it was gradually reduced to $115,419 at the end of
          August 1998.

          There were numerous improperly explained journal entries to adjust
          Account 1040-01 (Cash Checking Homes) to the monthly reconciliation.
          As of the September 30, 1998, reconciliation, the cash per books was
          $798,575. However, Wildwood showed the October 1 beginning cash
          balance had changed to $807,122. During October 1998, Wildwood made
          five journal entries to adjust cash. The October 31, 1998, bank
          reconciliation showed a balance per books that was $1,551 less than the
          balance per the general ledger.


USDA/OIG-A/27010-6-KC                                                          Page 6
                     We found that the amounts for some check numbers, per Wildwood’s
                     automated records, differed from the amount actually clearing the bank.
                     For example, the June 30, 1998, bank statement for centers contained a
                     note that checks 2231 thru 2299 “were out of sequence.” We found that a
                     printing error occurred and the amounts shown for the check numbers on
                     Wildwood’s automated system differed from the amounts for those check
                     numbers as shown on the bank statement. A similar condition occurred
                     for the bank statement for centers for check numbers 2431 thru 2485.
                     These types of inconsistencies made it difficult to reconcile the bank
                     statements and trace transactions through the financial system.

                     As shown in our prior report, Wildwood's computerized check summary
                     (check register) changed between the original and updated data Wildwood
                     provided to us. A computer comparison of the first check summary to the
                     second check summary showed that some checks missing from the first
                     check summary appeared on the second check summary. This showed
                     checks could be issued through the computer system with the system either
                     not recording the transaction or not maintaining accountability over the
                     transaction.

                     Wildwood’s memo responded to a reported finding dealing with a deficit
                     account by stating that ”…it seems unnecessary to quibble about month-
                     to-month variances between what was submitted to the State on the 17th
                     of the following month and what ultimately ends up in the financials for any
                     given month. Real-world accounting is a constant stream of ‘adjustment
                     to actual.’ The only point of concern should be a clean year-end cut off.”

                     We believe Wildwood’s comments indicate that officials gave a low priority
                     to accurate financial statements and compliance with regulatory
                     responsibilities. These responsibilities include maintaining complete,
                     accurate, and current disclosure of the financial results of CACFP
                     operations and the identification of the source and application of CACFP
                     funds by the continuous maintenance of updated records3.

                     Another serious weakness (see Finding No. 2) was that Wildwood
                     managers had not maintained adequate security controls over their
                     automated information systems. None of Wildwood’s employees had the
                     responsibility or knowledge to develop an adequate security plan or
                     computer application controls. Therefore, for the period covered by this
                     review, adequate computer security was not in place, which brings the
                     validity of the computerized transactions into question.


3
    7-CFR 3015.61 (a) and (b)


USDA/OIG-A/27010-6-KC                                                                    Page 7
                                       Coordinate with the SA to ensure Wildwood
   RECOMMENDATION NO. 1                demonstrates it is able to correct the serious
                                       deficiencies in its operations, show that it can
                                       maintain adequate records that provide a
        complete, accurate, and current disclosure of the financial results of the
        CACFP, and that it has established effective control over and
        accountability for all Federal funding.           If Wildwood is unable to
        demonstrate effective corrective action, coordinate with the SA to
        terminate its participation in the program.

            FNS Response

            The written response to the draft report (see exhibit D) showed that FNS
            concurred and will coordinate with the SA to ensure Wildwood is notified
            that the findings of this audit report are serious deficiencies and that
            Wildwood must correct these serious deficiencies in its operations, show
            that it can maintain adequate records, and establish effective control over
            and accountability for all Federal funding. FNS plans to direct the SA to
            offer Wildwood technical assistance. FNS anticipates that a consultant
            who is a Certified Public Accountant would assist Wildwood in establishing
            this financial management system. An over-all timeline with periodic
            progress reporting from the SA will be required. Implementation of the
            system will take between 6 to 9 months. To ensure the new financial
            management system is adequately functioning, an agreed upon
            procedures audit covering a 1-year period would be arranged. This audit
            would cover nine areas of noted weaknesses. If Wildwood does not fully
            correct its serious deficiencies, the SA must provide Wildwood with a
            notice of its intent to terminate Wildwood from the program.

            OIG Position

            Before we can agree to this management decision, we need to be
            provided timeframes for implementing the corrective action. We need
            specific dates for issuing determinations to Wildwood, having the
            consultant start work, final implementation of a satisfactory financial
            management system, and completion of the assessment of the functioning
            financial system. We can also consider the management decision if
            Wildwood is provided a notice of termination.

                                     Work with the SA to provide assurance that
   RECOMMENDATION NO. 2              Federal funds received by the sponsor were
                                     used only for authorized purposes. This could
                                     be    accomplished      by    sending      in   a
        multidisciplinary team to completely review and recreate the financial records
        and should include enhanced monitoring and review to ensure Federal funds

USDA/OIG-A/27010-6-KC                                                          Page 8
          were used only for authorized purposes until Wildwood demonstrates
          effective accounting systems and controls are in place and functioning.
          Obtain refunds where the sponsor cannot document Federal funding was
          used for authorized purposes.

          FNS Response

          FNS advised that as part of the proposed corrective action for
          Recommendation No. 1, an independent auditor would conduct an agreed
          upon procedures audit with the intent of ensuring identified problem areas
          had been corrected. FNS acknowledged that this solution would only
          ensure that current and future Federal funds are used only for authorized
          purposes.      However, implementation of an acceptable financial
          management system will require reconstruction and reconciliation of prior
          accounting periods. FNS will direct the SA that if this reconstruction
          process identifies the improper use of Federal funds, overclaims must be
          established and collected consistent with regulatory requirements.

          OIG Position

          OIG is concerned that the planned actions may not provide adequate
          assurance that Wildwood properly used Federal funds during the audit
          period. Before we can consider the management decision for this
          recommendation, we need to receive evidence that a billing has been
          issued for all questioned costs or that sufficient evidence has been
          provided to FNS to fully support any decision not to recover questioned
          amounts.

                                      In our prior audit report, we reported that
         FINDING NO. 2                internal control activities relating to the
                                      sponsor's automated financial accounting
   COMPUTER SECURITY WAS              system were non-existent. As a result, CACFP
        INADEQUATE                    funds were not adequately safeguarded against
                                      loss from fraud or unauthorized use or
                                      disposition.

          Wildwood's     computer    application   processed     CACFP       monthly
          reimbursements totaling about $1 million to about 3,000 homes and 100
          centers. No one was assigned responsibility for security nor did Wildwood
          have a computer application security plan or computer application controls.
          Also, no one had computer application knowledge or the necessary training
          to prepare a computer application security plan identifying the necessary
          application controls.



USDA/OIG-A/27010-6-KC                                                        Page 9
                   Our prior audit showed that the person responsible for Wildwood's
                   automatic data processing (ADP) functions said they did not have computer
                   system access controls. She said that logons and passwords are not
                   required to gain access to the computer application that processes CACFP
                   claims and writes reimbursement checks. Therefore, anyone who turns on
                   the computer can use it for any purpose. She said the only protection
                   against unauthorized use was lack of knowledge on how the system works.
                    She explained that she learned the system from her predecessor. When
                   asked for computerized check summaries, she was unable to provide the
                   information without assistance from the SA's Fiscal Administrator.

                   Federal regulations state that recipients and subrecipients of Federal funds
                   shall maintain effective control over and accountability for all USDA grant or
                   subgrant funds, real, and personal property assets.4 Federal regulations5
                   also identify the objectives of internal controls pertaining to the compliance
                   requirements for Federal programs.

                   Using computer database analysis, we found Wildwood's computerized
                   check summary changed between the first and second copies we were
                   provided. A computer comparison of the first check summary to the
                   second check summary showed that some checks missing from the first
                   check summary appeared on the second check summary. This shows
                   checks could be issued through the computer system with the computer
                   either not recording the transaction or not maintaining accountability over
                   the transaction.

                   In a June 9, 2000, memo responding to our first audit, Wildwood stated
                   essentially as follows:

                             Wildwood generally agreed with the security findings as stated in
                             the report. The MIS claims system was designed by the SA for use
                             by all Colorado sponsors. One design in the program was
                             deliberately made by the SA so it could have direct access to any
                             sponsor’s computer data. Wildwood has had numerous disputes
                             with the SA over responsibility for problems with the system;
                             however, Wildwood relied on the SA to provide all required security.
                              Since the start of the Office of Inspector General (OIG) audit,
                             Wildwood has initiated action on its own that all computers in the
                             office need to have log-on passwords for access. Additional
                             passwords are required for accounting applications or for claim
                             check processing. Wildwood would be receptive for ADP system
                             security training. Problems regarding checks missing from one

4
  7 CFR 3015.61(c)
5 Part 6 - Internal Control of the Compliance Supplement for OMB Circular A-133

USDA/OIG-A/27010-6-KC                                                                   Page 10
                    summary and appearing on a second summary go back to a poorly
                    designed MIS.

            In our prior audit report, we recommended FNS:

                •   Instruct the SA to work with the sponsor to develop a computer
                    security plan to ensure individual accountability requirements, and

                •   Instruct the SA to provide ADP system security training to the
                    person responsible for Wildwood's ADP functions so security
                    responsibilities can be assigned.

            As of the date of this report, management decision has not been reached on
            these recommendations. Since these weaknesses and recommended
            corrective actions are being handled through the management decision
            process for our prior audit report, we are making no further
            recommendations on these matters in this report.

                                     As reported in our prior report, Wildwood's
        FINDING NO. 3                administration of the program was also
                                     deficient in the area of financial management.
INAPPROPRIATE TRANSFERS OF           The sponsor failed to exercise prudence and
  FUNDS BETWEEN ACCOUNTS             due care in keeping Wildwood CACFP and
                                     Wildwood Resources finances separate, and
                                     ensuring only allowable program expenses
          were claimed or paid for with Federal funds. The sponsor was also
          negligent in its management of program funds.

            Our prior report showed that from January 1997 to June 1998, Wildwood
            wrote approximately $187,000 in insufficient fund checks out of its accounts
            at the Colorado Business Bank. These checks were written to providers,
            centers, employees, and for other administrative expenses. We also noted
            that Wildwood's expenses were greater than the amount of administrative
            funds it received from the SA (lesser of actual expenses or homes times
            rates calculation). Wildwood had insufficient fund checks in the provider
            account because it inappropriately transferred money out of the provider
            account to cover expenses in other accounts (i.e. CACFP administrative,
            CACFP centers, and Wildwood Resources, Inc.). As a result, Wildwood
            operated the CACFP program with a negative cash flow in FY 1998 and
            continued to operate at a deficit in FY 1999; and day care providers and day
            care centers were not paid in a timely manner.




USDA/OIG-A/27010-6-KC                                                          Page 11
          Overdrafts in Provider Account

          Per our prior report, the June 1998 bank statement showed Colorado
          Business Bank charged Wildwood over $1,000 for 60 overdrafts on June
          17, 1998. Wildwood transferred money on June 17 and 18, 1998, after the
          individual overdraft charges were posted to its account. This record of
          events gives the appearance that Wildwood knew funds were not available
          in the provider account when the checks were written, so Wildwood
          transferred money; however, Wildwood did not get the transfer completed
          before the checks were cashed. The bank reversed the overdraft charge on
          June 30, 1998.

          In a June 9, 2000, memo responding to our first audit, Wildwood stated
          essentially as follows:

                The controller of the previous 2 years left in April 1998. Her
                replacement started in May 1998. He held a CPA certificate and,
                although Wildwood could not speak to his professional competency,
                Wildwood attributed the error to his learning curve. Wildwood‘s
                current policy is that no payment be released from any account
                without adequate resources to fund it.

          Transferring Money between Accounts

          Per our prior report, Wildwood's bank statements also showed Wildwood
          was transferring money between different Wildwood CACFP and Wildwood
          Resources accounts. We determined that Wildwood did not keep track of
          all the transfers it made and did not have satisfactory documentation of the
          transfers.

          Funds had been transferred in and out of the provider account (in whole
          dollar amounts) beginning in October 1996. We traced all non-SA transfers
          between October 1996 and March 1999. By the end of FY 1997, Wildwood
          had transferred approximately $40,000 to the provider food account
          ($25,000 from the centers account and $15,000 from the administrative
          account). At the end of FY 1998, Wildwood had transferred almost $20,000
          to the provider food account (withdrew $10,000 for the centers account and
          deposited $30,000 from the administrative account).

          In a June 9, 2000, memo responding to our first audit, Wildwood stated
          essentially as follows:

                 In the past, it was necessary to transfer money between accounts
                 because of the unreliability of the receipt of administrative funds
                 from the SA. When the SA was late in getting payments to

USDA/OIG-A/27010-6-KC                                                        Page 12
                  Wildwood, money was moved from the Resources account. This is
                  rarely necessary anymore.

          According to the SA’s memorandum, dated July 10, 2000, although
          Wildwood indicated the reason they transferred money between accounts
          was the lateness of SA payments, the State processes all payments in a
          timely manner releasing all checks for payment by the first of the month.

          Administrative Account Deficit

          Per our prior report, at the end of FY 1997, Wildwood had an approximate
          $29,000 deficit. From Wildwood's financial statements, we determined that
          Wildwood's deficit continued into FY 1999. Wildwood was able to continue
          to operate at a deficit due to the administrative advance it received every
          month from the SA for administrative expenses and by transferring money
          to and from the different accounts (homes, centers, administrative, and
          Wildwood Resources).

          According to Wildwood's controller, Wildwood CACFP received a loan from
          Wildwood Resources to cover the additional amount of CACFP money it
          spent on computer training and software purchased in preparation for
          tiering; however, the SA did not reimburse Wildwood for the total.
          Wildwood's controller claimed this caused the deficit. (Tiering went into
          effect on July 1, 1997.) Wildwood prepared the computer system for tiering
          before it received the money allocated to it from the SA for tiering. In total,
          Wildwood was awarded nearly $36,000 (50 percent of the total money
          received by Colorado). The SA paid them in three increments; $29,000 on
          April 4, 1997, $3,000 on October 15, 1997, and $4,000 on March 26, 1998.
          At the time of our review, Wildwood was appealing to have the SA
          reimburse it for the loan obtained from Wildwood Resources.

          We noted that Wildwood usually received the homes times rate amount for
          reimbursement because its actual expenses were usually higher than the
          homes times rate calculation. In FY 1998, Wildwood's actual expenses
          were above the homes times rates calculation for 7 of 12 months. This
          confirms that Wildwood spent more money for administrative expenses than
          it received from the SA to cover its administrative expenses.

          For FY 1998, Wildwood showed a net loss of nearly $36,000 on the financial
          statements but only claimed a net loss of approximately $4,000 to the SA.

          In a June 9, 2000, memo responding to our first audit, Wildwood stated
          essentially as follows:



USDA/OIG-A/27010-6-KC                                                           Page 13
                Wildwood should receive from the SA what it is entitled to receive.
                If actual expenses are more, the funds to cover such expenses
                need to come from sources outside of State or Federal funds
                (presumable from Wildwood Resources). It seems unnecessary to
                quibble about month-to-month variances between what was
                submitted to the State on the 17th of the following month and what
                ultimately ends up in the financials for any given month. Real-world
                accounting is a constant stream of ‘adjustment to actual’. The only
                point of concern should be a clean year-end cut off.

          Wildwood Withheld Checks

          As shown in our prior report, we compared FY 1998 bank statements to
          Wildwood's check summary to determine if Wildwood actually had funds to
          cover the outstanding checks. Our comparison disclosed that Wildwood
          consistently did not have enough money in its provider food account to
          cover monthly provider checks. Wildwood should never have had a deficit
          in the food account and should never have had to withhold provider checks.
          Each month Wildwood receives funds from the SA in the amount of the
          claim it submitted to the State. This claim should include all meal counts
          that providers submitted to Wildwood.

          From Wildwood's bank statements, we determined that blocks of checks did
          not clear the bank until the month following the payment date. For example:

          The October 1997 bank statement showed that 102 checks (check numbers
          43631 through 43702 and 43704 through 43733) were outstanding for
          October. According to Wildwood's computerized check summary, these
          checks were written on October 7, 1997; however, none of these checks
          cleared during the month of October. All but three checks cleared the bank
          in November 1997. Two of the remaining three checks cleared on
          December 3 and December 22, respectively. The third check did not clear
          as of the July 1998 bank statement.

          The April 1998 bank statement showed that 107 checks (check numbers
          63280 through 63296; 63298 through 63327; 63329 through 63352, 63354
          through 63359, 63361 through 63381, and 63383 through 63391) were
          outstanding for April.    According to Wildwood's computerized check
          summary, these checks were written on April 3, 1998; however, none of
          these checks cleared during the month of April. All but four checks cleared
          the bank in May 1998. Three of the remaining four checks cleared on June
          10, June 15, and July 2, respectively. The fourth check did not clear as of
          the July 1998 bank statement.



USDA/OIG-A/27010-6-KC                                                       Page 14
                    Wildwood's controller said that the accounts on Wildwood's income
                    statement had not been reconciled and had not been tied down.

                    FNS National office officials stated the provider food account is a trust
                    account and any money that goes into it should be disbursed to providers
                    immediately.

                    In a June 9, 2000, memo responding to our first audit, Wildwood stated
                    essentially as follows:

                              Wildwood stated that the only possible error for the October and April
                              1998 checks was that the date on the check was the date the check
                              was prepared rather than the date of intended issue. Currently,
                              checks are written throughout the month, dated to release the first of
                              the month after the funds for those claims are expected to be
                              received from the State. Although Wildwood disagreed that checks
                              were held because there was no money to cover them, Wildwood
                              stated provider checks were held for a number of reasons. Wildwood
                              always has money to cover the held checks since the claims have
                              already been processed and the claim submitted to the SA for
                              reimbursement. Wildwood does not consider these checks to be
                              outstanding.

                    OIG believes the policy as stated by Wildwood does not meet the
                    requirements of regulations to make payments to homes within 5 days of
                    receipt from the SA.6

                    Regulations also state that occasionally an awarding agency, or a recipient
                    awarding a subgrant, may find that a particular recipient is financially
                    unstable, has a history of poor performance, or has a management system
                    that does not meet the standards. In these cases, the awarding agency
                    may impose special conditions that are more restrictive than otherwise
                    permitted.7

                    In our prior audit we recommended that FNS:

                          •    Require the SA to ensure the sponsor maintains the integrity of the
                               funds received from the SA,




6
    7 CFR 226.16 (g).
7
    7 CFR 3015.4(a), January 1998


USDA/OIG-A/27010-6-KC                                                                      Page 15
                           •   Require the SA to direct the sponsor not to make any future
                               transfers between accounts, restore fund shortages, and reconcile
                               each provider's earnings, payments, and cleared checks,
                           •   Require the SA to determine that the sponsor timely issues the full
                               amount of funds due to each provider, and

                           •   Instruct the SA to perform a followup review of the sponsor to
                               determine whether the sponsor has discontinued the practices of
                               transferring money between accounts, operating the program with a
                               negative cash flow, and withholding provider checks.

                        As of the date of this report, management decision has not been reached
                        on these recommendations. FNS officials advised that they had directed
                        the SA to require Wildwood to establish and maintain separate bank
                        accounts due to concerns with the financial integrity of Wildwood’s
                        operations. Since these weaknesses and recommended corrective actions
                        are being handled through the management decision process for our prior
                        audit report, we are making no further recommendations on these matters
                        in this report.

                        In its written response to the draft report (see exhibit D), FNS requested
                        additional information on deficit operations. We were unable to provide
                        this information, as it was not readily available. FNS also noted that
                        information concerning a loss for December 1997 was not pertinent. We
                        have removed that information from our final report.

                                        Wildwood management did not establish
           FINDING NO. 4                proper reconciliation procedures nor did they
                                        ensure that the disposition of each
     OUTSTANDING CHECKS WERE            outstanding check was properly documented.
       NOT CONTROLLED AND               We determined checks totaling $159,753 (see
            REFUNDED                    exhibit    C)   were    reported    on   bank
                                        reconciliations but never cleared the bank
                                        after Wildwood listed them as outstanding.
             Wildwood listed these checks as outstanding from 6 months to 3 years
             and then dropped them from the reconciliations without explanation.
             Wildwood’s lack of accountability for checks outstanding for long periods
             weakened internal controls over cash and increased the risk that Federal
             funds could be used for unauthorized purposes.

                    Regulations require that recipients maintain effective control over and
                    accountability for all Federal grant or subgrant funds.8 In addition,
                    regulations state that each sponsor shall disburse any reimbursement

8
    7 CFR 3015.61(c).

USDA/OIG-A/27010-6-KC                                                                    Page 16
            payments for food service due to each home within 5 working days of
            receipt from the SA. FNS personnel advised that if a check to a provider
            was not cashed, the sponsor was not to keep the money but was to return
            it to the SA. The SA was then to return the money to FNS.

            FNS personnel advised that the sponsor holds provider meal funds in trust
            and the funds are considered Federal funds until disbursed to the provider
            or center. This is true even if the funds are deposited in a sponsor’s bank
            account. Wildwood could not provide evidence that it had refunded to the
            SA or FNS any funds from uncashed checks. However, Wildwood
            recognized that funds for uncashed checks were to be refunded to the
            funding agency based on the September 1998 bank reconciliation which
            showed an “outstanding liability to the State/providers” for $128,534.

            In response to the SA’s request for all sponsors to provide their policies on
            uncashed checks, Wildwood advised it could not find any written policy.
            Wildwood’s February 10, 2000, memo to the SA advised that Wildwood
            had identified 28 checks totaling $4,200 ranging in age from June 1999 to
            August 1998. As of December 2000, the SA advised that it had no record
            of Wildwood ever returning any funds for aged checks and that no action
            had been taken on the $4,200 of aged checks identified in Wildwood’s
            February 10 memo.

            Because of the numerous transfers between the various accounts and the
            numerous errors in reconciliations, OIG cannot explain the actual
            disposition of the funds represented by the outstanding checks. As shown
            in exhibit C, Wildwood changed banks effective in January 1997 and
            moved $56,814.96 to the new bank in April 1997. After March 31, 1997,
            the outstanding checks drawn against the old bank no longer appeared on
            the bank reconciliations. In addition, the centers account contained
            $17,472.56 at the end of March 2000. (Wildwood no longer administered
            centers after September 1999.) In both of these cases, the account
            balances reasonably included funds for aged outstanding checks.

                                    Coordinate with the SA to require the sponsor
   RECOMMENDATION NO. 3             to provide adequate documentation of the
                                    disposition of checks shown as outstanding
                                    but not subsequently cleared through the
        bank. Obtain refunds where the sponsor cannot document Federal funding
        was used for authorized purposes.

            FNS Response

            The FNS response showed it concurred with the recommendation and will
            coordinate with the SA to require Wildwood to provide documentation

USDA/OIG-A/27010-6-KC                                                           Page 17
            regarding the disposition of outstanding checks consistent with FNS
            instructions. The instructions require that institutions undertake specific
            actions when facility payments are not liquidated timely and return aged
            payments to FNS via the SA. Further FNS will direct the SA to ensure the
            implementation of an acceptable financial management system includes
            reconciliation of all prior period checks identified in the audit as
            outstanding and that the funds for all aged checks identified in this
            process are also returned to FNS via the SA.

            OIG Position

            In order for us to consider the management decision, we need to receive
            evidence Wildwood has established adequate controls over aged
            outstanding checks and has been billed for the amounts due.

            In the response, FNS requested additional information on what happened
            to the money in Wildwood’s bank account that represented these
            outstanding checks. We have added a paragraph in the above finding to
            address this comment.

                                      The bank reconciliations prepared by
                                      Wildwood employees did not follow sound
        FINDING NO. 5                 accounting practices, contained numerous
                                      errors, were not timely, and did not provide
   CASH WAS NOT PROPERLY              adequate control over the approximately $10.7
        CONTROLLED                    million of Federal assistance for food provided
                                      to Wildwood each year. Timely and accurate
          reconciliations are an important internal control to protect cash.

            Wildwood made numerous errors on the bank reconciliations for the
            homes food account and the centers account; which made the
            reconciliation process ineffective as a control function. For example,
            Wildwood’s independent public accountant’s report covering homes for the
            year ending September 30, 1999, reported as follows:

                  The periodic reconciliation of the sponsor’s bank accounts is an
                  important control designed to help safeguard the sponsor’s cash.
                  The sponsor’s bank reconciliations were not timely prepared during
                  the year ended September 30, 1999, (August and September not
                  completed as of January 2000). In addition, the sponsor did not
                  follow a procedure that requires all bank reconciliations to be
                  reviewed by an employee not associated with the bank
                  reconciliation preparation, which weakens the sponsor’s internal
                  controls.


USDA/OIG-A/27010-6-KC                                                         Page 18
          Our review of the October 1996 through December 1999 bank
          reconciliations disclosed the following errors:

                1)    Checks were listed as outstanding that were not yet issued,
                      had been voided as of the bank reconciliation date, or were
                      out of the current series of numbers (improbable check
                      numbers).

                2)    There were variances in the check amounts listed on the bank
                      reconciliations compared to the check amounts that actually
                      cleared the bank.

                3)    The bank reconciliations were not prepared timely and were
                      generally not documented as to which employee prepared the
                      reconciliation and whether a Wildwood management official
                      reviewed and approved the reconciliation. (This was also a
                      finding in the independent public accountant’s report for the
                      year ending September 30, 1999.)

                4)    Wildwood did not take action to return funds to the SA when
                      reconciliations listed provider checks that were over 6 months
                      old.

                5)    Wildwood incorrectly transferred the beginning bank balance
                      (from the bank statement) to its bank reconciliation. This
                      caused an error of nearly $36,000, which contributed to an
                      unexplained difference between the “book balance” and the
                      corrected “bank balance” for that month of nearly $32,000;
                      which was never resolved by Wildwood.

                6)    Wildwood never listed some checks as outstanding but the
                      date on the check indicated the checks had been outstanding
                      several months prior to clearing the bank.

          For example, Wildwood’s March 1997 reconciliation showed 360
          outstanding checks from prior months totaling $115,439. We found 18
          checks totaling $3,551 which had already cleared, or which Wildwood
          should not have listed as outstanding, on the reconciliation. Similarly, our
          review of the March 1998 reconciliation showed Wildwood recorded 133
          outstanding checks from before March totaling $29,526. We identified 48
          checks (totaling $10,867), where, based on the check number, the check
          had previously cleared the bank. However, for 12 of the 48 check
          numbers, the amount that cleared the bank was different from the amount
          shown on the reconciliation.


USDA/OIG-A/27010-6-KC                                                        Page 19
          We requested Wildwood to provide us with automated records of their
          check registers to allow us to perform various reconciliations. We found
          that over 1,800 checks cleared the bank that were not listed on the
          computerized check register files that Wildwood provided to us. For 167
          records on the check register, we could not associate the transaction with
          a valid check number per the bank's records of cashed checks. (The
          check register showed a blank or a number outside the series of check
          numbers used for the period.)

          We also identified 55 checks that cleared the bank although the date of
          the check (pay date on the check register) had not yet occurred. For
          example, four checks were shown in Wildwood’s check register with a
          date of October 17, 1998, but cleared the bank in mid-September 1998.
          We also noted that check sequence numbers were not in date order (see
          example below).

                    Check     Transaction      Check Date
                      No        Amount         (Pay Date)
                   122899    $929.97        28-Oct-99
                   123407    $289.03        04-Nov-99
                   123454    $85.68         01-Oct-99
                   124041    $460.35        01-Nov-99
                   124141    $243.76        01-Oct-99

          Wildwood advised that the pay date reflects the date Wildwood prints on
          the check to the provider (even if the check is printed earlier).

          Wildwood responded to the finding in the independent auditor’s report by
          stating the following:

                “…Effective October 1, 1999, the Director of Finance reviews the
                completed bank reconciliations with at least one other director, and
                they both initial and date the statement….”

          Even after the corrective action shown above, Wildwood continued to
          have questionable entries in the reconciliations. For example, the
          December 1999 bank reconciliation (approved by Wildwood’s Director of
          Finance as of March 8, 2000) listed a check as outstanding that had
          cleared in a prior period for a different amount than recorded. In addition,
          this reconciliation listed 21 checks that had been outstanding for over 6
          months.

          Wildwood exhibited poor internal controls over voided checks. The voided
          checks resulted from printing errors, check number errors, revisions, and,
          for over 150 checks, the wrong year was printed on the checks. Based on
USDA/OIG-A/27010-6-KC                                                        Page 20
          the number and type of errors, we concluded management had not taken
          effective action to ensure that voided checks were kept to a minimum
          level. The large volume of voided checks increased the difficulty of
          tracking and properly accounting for checks. It is important that proper
          internal controls be established over voided checks to prevent checks
          recorded as voided from being cashed.

          We reviewed the bank records and reconciliations for Wildwood covering
          the periods October 1996 through December 1999 in the homes food
          account. A review of voided checks for 1998 showed Wildwood had
          voided over 600 checks. This large number of voided checks further
          exacerbates the problem of reconciling the bank records to book balances
          for cash. Some of the bank reconciliations exhibited problems such as
          including voided checks in the calculations. Until January 1998, Wildwood
          did not retain the voided checks. As of our review in April 2000, Wildwood
          maintained the voided checks in 14 large notebooks.

                                        Coordinate with the SA to require Wildwood to
   RECOMMENDATION NO. 4                 strengthen controls over cash, reconciliations,
                                        and voided checks. Monitor Wildwood to
                                        ensure it performs timely, accurate, and
          meaningful reconciliations.

          FNS Response

          The FNS response showed it concurred with the recommendation and will
          coordinate with the SA to require Wildwood to strengthen controls over
          cash, reconciliations, and voided checks. FNS proposed that this
          recommendation would be satisfied once the consultant/CPA begins to
          work with Wildwood and monthly progress reports indicate controls are in
          place. Final action will occur when the independent auditor issues the
          agreed-upon procedures audit report.

          OIG Position

          Before we can consider this management decision, we need to be
          provided timeframes for implementing the corrective action. This should
          include the estimated dates for completion of the assessment of the
          functioning financial system.




USDA/OIG-A/27010-6-KC                                                         Page 21
                                       GENERAL COMMENTS


                      1. Hiring of Relative Violated Wildwood’s Policies

                      During 1999, Wildwood’s president hired her relative to work for part of the
                      year although employment policies specifically stated that it was the policy of
                      Wildwood not to hire relatives of employees.9

                      Wildwood’s administrative files included a Form W-2, Wage and Tax
                      Statement, for an individual who employees identified as the relative of the
                      president of Wildwood. The form showed earnings of $4,444. A
                      Wildwood official advised that the relative did photocopying and filing. She
                      believed that, due to the nature of the work performed, the employment
                      was not improper.

                      We believe that by violating its own policies, Wildwood management sent
                      an improper message to its employees and the public.




9
    Employee Handbook for Wildwood Child & Adult Care Food Program, Inc. and Wildwood Resources, Inc., 1/98, section 1-25.

USDA/OIG-A/27010-6-KC                                                                                                   Page 22
EXHIBIT A – SUMMARY OF MONETARY RESULTS


Finding
  No.                     Description                 Amount        Reference
   1    Liability of SA/Wildwood due to Wildwood’s    $36,735,858     1/ 2/
        inadequate accounting system and lack of
        controls.
   4    Liability for aged checks never cashed by       $159,753        1/
        providers and centers.

      1/ Unsupported Costs - Recovery Recommended.

      2/ This amount represents all Federal funding for food and administrative
      reimbursement received by Wildwood for FYs 1997 through 1999. The funding
      received was reduced by the questioned costs in Finding No. 2. We did not
      make any adjustments for the refunds made by Wildwood or the questioned
      costs resulting from other reviews and audits for the 3-year period.




USDA/OIG-A/27010-6-KC                                                  Page 23
EXHIBIT B – SITES VISITED

          FNS Regional Office                      - Denver, Colorado

          CDPHE                                    - Denver, Colorado

          Wildwood, Inc., Administrative Offices   - Littleton, Colorado

          Colorado Business Bank                   - Denver, Colorado

          Independent Auditors                     - Denver, Colorado




USDA/OIG-A/27010-6-KC                                                      Page 24
EXHIBIT C – CHECKS THAT NEVER CLEARED PER
RECONCILIATIONS



                                                                                                                REMARK
BANK                                     OUTSTANDING                       UNACCOUNTED                          S
RECONCILIATION                           CHECKS PER                        FOR CHECKS
DATE                                     WILDWOOD
Providers
                                                                                                                   10
March 31, 1997                           $    115,439.33                    $     111,645.12
                                                                                                                   11
March 31, 1998                           $     79,689.76                    $      15,975.87
                                                                                                                   12
March 31, 1999                           $     31,811.30                    $       7,801.80
                                                                                                                   13
December 31, 1999                        $     32,173.75                    $      12,942.62
 Subtotal                                                                   $     148,365.41


                                                                                                                   14
Centers                                                                     $      11,387.73

 Total                                                                      $     159,753.14




10
   The March 31, 1997, reconciliation included $47,477.01 of outstanding checks dated before August 1996.
Wildwood changed banks effective in January 1997 and moved $56,814.96 to the new bank in April 1997. After
March 31, 1997, the outstanding checks drawn against the old bank no longer appeared on the bank reconciliations.
11
   The March 31, 1998, reconciliation included $24,353.87 of uncleared checks issued between January 1997 and
November 1997. In April 1998, Wildwood dropped from the reconciliation all uncleared checks with pay dates before
April 1, 1998. We noted that four of the uncleared checks not shown on the April 1998 bank reconciliation
subsequently cleared after April 1998.
12
   The March 31, 1999, reconciliation included checks from August 1998. We adjusted Wildwood’s outstanding
check total for checks that had actually cleared before the March reconciliation. We eliminated any checks that also
appeared on the December 1999 reconciliation to prevent duplication of reporting.
13
    The December 1999 reconciliation included checks from August 1998. We adjusted Wildwood’s outstanding
check total for checks that had actually cleared before the December reconciliation and checks that we identified as
clearing during January and February 2000.
14
   The August 1998 reconciliation for centers included 13 checks dated prior to 1997 and 5 checks issued during
1997.
USDA/OIG-A/27010-6-KC                                                                                   Page 25
EXHIBIT D – FNS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27010-6-KC                          Page 26
USDA/OIG-A/27010-6-KC   Page 27
USDA/OIG-A/27010-6-KC   Page 28
USDA/OIG-A/27010-6-KC   Page 29
                                             ABBREVIATIONS


ADP
  Automatic Data Processing ...................................................................................... 10

CACFP
  Child and Adult Care Food Program ........................................................................... i

CDPHE
  Colorado Department of Public Health and Environment........................................... 1

CPA
  Certified Public Accountant ........................................................................................ 8

COFRS
  Colorado Financial Reporting System........................................................................ 3

FNS
  Food and Nutrition Service ......................................................................................... i

FNSRO
  Food and Nutrition Service Regional Office ............................................................... 2

FY
     Fiscal Year ................................................................................................................. 2

MIS
   Management Information System ............................................................................. 5

OIG
   Office of Inspector General ...................................................................................... 10

OMB
  Office of Management and Budget ............................................................................ 1

SA
     State Agency .............................................................................................................. i

SNIPIIS
  Special Nutrition Programs Integrated Information System ....................................... 3

USDA/OIG-A/27010-6-KC                                                                                                  Page 30
